<html>
<title> - COMMUNITY SUPPORT: ENTREPRENEURIAL DEVELOPMENT AND BEYOND</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
       COMMUNITY SUPPORT: ENTREPRENEURIAL DEVELOPMENT AND BEYOND

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON INVESTIGATIONS, OVERSIGHT, AND REGULATIONS

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                             APRIL 12, 2018

                               __________
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               
                               

            Small Business Committee Document Number 115-066
              Available via the GPO Website: www.fdsys.gov
              
              
              
              
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 29-529                 WASHINGTON : 2018                    
              
              
              
              
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                      RALPH NORMAN, South Carolina
                           JOHN CURTIS, Utah
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                         YVETTE CLARK, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
                     
                     
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Trent Kelly.................................................     1
Hon. Alma Adams..................................................     2

                               WITNESSES

Mr. Ara Bagdasarian, CEO, Omnilert, Leesburg, VA, testifying on 
  behalf of America's SBDC.......................................     5
Mr. Derrick Braziel, Founding Partner & Managing Director, MORTAR 
  Cincinnati, Cincinnati, OH, testifying on behalf of SCORE......     7
Ms. Stephanie Carter, President, SCB Management Consulting, Upper 
  Marlboro, MD, testifying on behalf of the Association of 
  Women's Business Centers.......................................     9
Ms. Tamara Bryant, Director, Veterans Business Outreach Center at 
  Fayetteville State University, Fayetteville, NC................    11

                                APPENDIX

Prepared Statements:
    Mr. Ara Bagdasarian, CEO, Omnilert, Leesburg, VA, testifying 
      on behalf of America's SBDC................................    21
    Mr. Derrick Braziel, Founding Partner & Managing Director, 
      MORTAR Cincinnati, Cincinnati, OH, testifying on behalf of 
      SCORE......................................................    26
    Ms. Stephanie Carter, President, SCB Management Consulting, 
      Upper Marlboro, MD, testifying on behalf of the Association 
      of Women's Business Centers................................    30
    Ms. Tamara Bryant, Director, Veterans Business Outreach 
      Center at Fayetteville State University, Fayetteville, NC..    36
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.


       COMMUNITY SUPPORT: ENTREPRENEURIAL DEVELOPMENT AND BEYOND

                              ----------                              


                        THURSDAY, APRIL 12, 2018

                  House of Representatives,
               Committee on Small Business,
    Subcommittee on Investigations, Oversight, and 
                                        Regulations
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:00 a.m., in 
Room 2360, Rayburn House Office Building, Hon. Trent Kelly 
[chairman of the Subcommittee] presiding.
    Present: Representatives Kelly, Chabot, Marshall, Norman, 
and Adams.
    Chairman KELLY. Good morning. I call today's Subcommittee 
on Investigations, Oversight, and Regulations hearing to order.
    I would like to thank everyone for joining us. The 
importance of small businesses in supporting the United States 
economy cannot be overstated. With 29.6 million small business 
employing 47.8 percent of the workforce, small business success 
is essential to the economic well-being of both individual 
communities throughout the country, as well as our Nation 
overall.
    While there are many factors that contribute to the success 
of a small business, one factor that is often overlooked is the 
community-small business relationship. This relationship is 
complex and reciprocal, requiring effort and support from both 
the community and the small businesses to achieve mutual 
success. Today's hearing will focus on understanding the 
community-small business relationship, the resources currently 
available to foster this important relationship, and areas for 
resource expansion in the future. When we are talking about the 
community-small business relationship, all sources of community 
are important. Some of the most business centric communities 
are found within the Small Business Administration, or SBA's, 
Entrepreneurial Development programs. My home state of 
Mississippi is fortunate to have a Women's Business Center, a 
Veterans Business Outreach Center, or VBOC, multiple SCORE 
chapters, and Small Business Development Centers. These 
entrepreneurial development communities, along with many 
others, have been integral to the success of Mississippi's 
252,000 small businesses.
    Why are these and other communities so important? 
Statistically, a small business owner who is involved in a 
community and has the support of the community, is 
significantly more likely to receive patronage, promotion, 
assistance, and advice from that community. Many small business 
owners rely on communities, such the SBA's Entrepreneurial 
Development programs, to offer them the knowledge and resources 
they need to be successful. Conversely, many communities rely 
on the success of small business to survive and thrive. A 
successful small business provides 3.7 times more direct local 
economic benefit than a large non-local business. Clearly, 
understanding and fostering this relationship is vital to not 
only the small businesses and communities involved, but to the 
economic well-being of our Nation.
    Our witnesses today will speak to their experiences 
regarding the community-small business relationship, both in 
terms of the communities found in the SBA's Entrepreneurial 
Development programs, as well as those found elsewhere. I look 
forward to hearing their stories and their advice on what 
Congress can do better to provide small businesses and 
communities with the resources they need to succeed. I now 
yield to Ranking Member, Ms. Adams, for her opening statement.
    Ms. ADAMS. Thank you, Mr. Chairman, and thank you to all of 
the witnesses for being here today. Mr. Chairman, thank you for 
holding this important hearing regarding the SBA resources 
available in our communities.
    The SBA administers a portfolio of Entrepreneurial 
Development programs, including Small Business Development 
Centers, Women's Business Centers, the Service Corps of Retired 
Executives, or SCORE, and Veterans Business Outreach Programs. 
These initiatives provide aspiring entrepreneurs and existing 
businesses with invaluable counseling, training, technical 
assistance, and mentorship. This hearing gives us the 
opportunity to celebrate the role of SBA resources partners in 
the diverse ways they serve our country and learn more about 
how they tailor their offerings to their unique communities.
    Whether it is help creating a business plan, navigating the 
procurement process, marketing a new product, or identifying 
international trade opportunities, the SBA's Entrepreneurial 
Development Programs provide an array of services to help small 
firms navigate regulatory obstacles, grow, and thrive. 
Entrepreneurs, therefore, significantly benefit from having 
tools to identify, fiscally plan for, and maintain critical 
business improvements.
    Small business owners located throughout the country, 
including in underserved rural and inner city communities, also 
benefit from accessible, affordable technical assistance. This 
reduces their isolation from buyers and other businesses.
    In addition to outreach, hands-on counseling is critical 
for businesses to obtain information pertinent to their local 
market and capacities. This is why the SBA Entrepreneurial 
Development programs are so critical to our local communities. 
As an example, the Agency's network of Small Business 
Development Centers is one such program. They operate in nearly 
1000 locations across the country, located at colleges, 
universities, Chambers of Commerce, and local economic 
development corporations, allowing them to harness local 
community resources. In a single year, this initiative has 
helped more than 17,000 entrepreneurs launch new businesses, 
advised nearly 200,000 clients, provided training sessions for 
over 260,000 attendees, and helped clients obtain over $5 
billion in financing. Clearly, this program is vital, it is a 
vital part of our Nation's entrepreneurial ecosystem.
    The SBA has also undertaken efforts to connect younger 
entrepreneurs with more experienced businessmen and women 
through the SCORE program, an expansive network of 
entrepreneurs, business leaders, and executives who volunteer 
as mentors to small firms, both in-person and online. SCORE has 
become one of the federal government's largest volunteer 
business advisor and mentoring programs with over 11,000 
business professionals at over 320 chapters nationwide. By 
offering advice from real world professionals, SCORE is helping 
many business owners within all categories of the 
entrepreneurial community.
    Small businesses are as diverse as our Nation and the SBA 
has entrepreneurial development initiatives targeted at 
specific demographic groups.
    Women's Business Centers, or WBCs, are a critical 
initiative for female entrepreneurs. WBCs provide in-depth 
counseling, training, and mentoring to small firms, resulting 
in substantial economic impact as measured by successful 
business startups, job creation and retention, and increased 
company revenues. Women business owners have used this program 
to develop business plans, obtain financing, and expand their 
operations. As more women turn to entrepreneurship as a career 
path, it is critical this initiative remain in place to close 
those gaps.
    And, finally, there are a range of SBA programs targeted at 
our veterans, most notably the Veterans Business Outreach 
Centers, which serve over 60,000 clients each year. The VBOC 
program, along with Boots to Business and other veteran-
oriented initiatives, ensure that our service members have the 
tools they need to go into business for themselves. There are 
currently 20 VBOCs responsible for ensuring veterans' access to 
capital through marketing and outreach efforts. Most 
importantly, they promote veterans for federal procurement 
opportunities to ensure three percent of federal prime 
contracts and subcontracts go to service-disabled veteran-owned 
small businesses.
    The SBA programs are key to helping business owners remain 
competitive in a global market. It is critical that we consider 
ways to legislatively strengthen SBA Entrepreneurial 
Development Programs; we do so with our local communities in 
mind.
    Today's hearing will focus on the efforts within each of 
the SBA programs regarding community outreach. It also gives 
Members the chance to hear about the challenges they face in 
developing their networks and assisting local small businesses 
adapt to a rapidly changing economy.
    I look forward to the witnesses' insight, and I want to 
thank you all for being here today.
    Thank you, Mr. Chairman. I yield back.
    Chairman KELLY. I thank the gentlelady. I also want to 
recognize our full Committee Chair. Chairman Chabot is here and 
at the hearing. And also I just want to thank our Ranking 
Member, Ms. Adams. She is such a joy and this is such a great 
Committee to be on. She is a joy to work with, both in 
Committee and outside of Committee on legislation that we work 
together on. And I just think that it is quite an honor to be 
on a Committee where there we still like each other in some of 
these jobs. So I just want to thank our Ranking Member.
    And to the panel today, if Committee members have an 
opening statement prepared, I ask that they submitted for the 
record. I would like to take a moment to explain the timing 
lights for you. You each have 5 minutes to deliver your 
testimony. The light will start out green. When you have 1 
minute remaining, it will go to yellow, and when it turns red 
your time is up. Now, I will give you a little bit of time, by 
you all have got remember I have got a little military in me, 
so I may tap you out. So try to adhere to the time limit as 
much as you can, but if you go a little bit over we will be 
understanding.
    And, with that, our first witness is Mr. Ara Bagdasarian. 
Mr. Bagdasarian is a CEO and Co-Founder of Omnilert, an 
emergency alert and notification systems company. In 2011 he 
authored the book, The Lemonade Stand a why-to book for 
entrepreneurs that later led to his founding of the Lemonhead 
Council. The Lemonhead Council serves as an advisory board of 
entrepreneurs, helping entrepreneurs. Mr. Bagdasarian is an 
active member of his community, serving on the board of a 
number of organizations, including the George Mason University 
Enterprise Center and the United Way of the National Capital 
Area. He is testifying on behalf of America's SBDC, the 
association that represents America's nationwide network of 
Small Business Development Centers.
    Thank you for joining us today, Mr. Bagdasarian.
    I now yield to Chairman Steve Chabot, Chairman of the full 
Committee to introduce our next witness.
    Mr. CHABOT. Thank you very much, Mr. Chairman. And I am 
very pleased to introduce Derrick Braziel, who is the co-
founder and managing director of MORTAR Cincinnati business 
accelerator in my district, in Cincinnati. The mission of 
MORTAR is to ``enable underserved entrepreneurs and businesses 
to succeed, creating opportunities to build communities through 
entrepreneurship''. And they really do provide and fight for 
that mission on a daily basis. Mr. Braziel and his many 
talented colleagues have created an outstanding organization, 
which continues to assist in bringing economic growth and 
opportunity to many of Cincinnati's neighborhoods.
    Prior to his time at MORTAR, Mr. Braziel worked as the 
director of civil projects at Lewis & Clark Co. and the project 
manager at Strive Together. He also co-founded Dreamapolis, and 
entrepreneurial development nonprofit located in Indianapolis, 
Indiana.
    He is testifying on behalf of SCORE, the Nation's largest 
network of volunteer expert business mentors, with more than 
10,000 volunteers in 300 chapters across the country.
    We thank you very much, Mr. Braziel, for being here today 
and look forward to visiting you all in the past, both there 
and here in Washington. And we are looking forward to your 
testimony.
    Thank you. I yield back, Mr. Chairman.
    Chairman KELLY. Thank you, Mr. Chairman. Our next witness 
is Ms. Stephanie Carter. Ms. Carter is the president of SCB 
Management Consulting, Inc., a public and private sector 
financial and operation strategy and implementation 
consultation practice. SCB Management Consulting is also 
certified as both a women's business enterprise and a women-
owned small business.
    Ms. Carter brings 25 years of experience to her current 
role, having previously worked at companies such as 
Pricewaterhouse Cooper, CIGNA, and Resources Global 
Professionals. She is testifying on behalf of the Association 
of Women's Business Centers, which works to secure 
entrepreneurial opportunities for women by supporting and 
sustaining a national network of over 100 Women's Business 
Centers.
    Thank you for being here, Ms. Carter.
    I now yield to Ms. Adams to introduce the final witness.
    Ms. ADAMS. Thank you, Mr. Chairman. It is my pleasure to 
introduce Ms. Tamara Bryant, the director for Veterans Business 
Outreach Center at Fayetteville State University, in my home 
State.
    Ms. Bryant previously owned and operated a trucking company 
while also holding a position as director of the Small Business 
Center at Fayetteville Community College. Under her leadership, 
FTCC's Small Business Center was recognized with the Small 
Business Center Excellence Award for innovation in programs and 
services in 2013 and in 2015. During those years she also 
received Direct of the Year Award. And in 2017, under Ms. 
Bryant's leadership, FTCC received a national award from the 
National Association for Community College Entrepreneurship for 
College of Excellence.
    Ms. Bryant earned her degree from Fayetteville State 
University--she is a Bronco--and her master's degree from 
Central Michigan University.
    Welcome, Ms. Bryant; thank you for being here.
    Chairman KELLY. Thank you again to our Ranking Member, Ms. 
Adams.
    And, with that, Mr. Bagdasarian, you are recognized for 5 
minutes to deliver your statement. You may begin.

STATEMENTS OF ARA BAGDASARIAN, CEO, OMNILERT; DERRICK BRAZIEL, 
   FOUNDING PARTNER & MANAGING DIRECTOR, MORTAR CINCINNATI; 
STEPHANIE CARTER, PRESIDENT, SCB MANAGEMENT CONSULTING; TAMARA 
      BRYANT, DIRECTOR, VETERANS BUSINESS OUTREACH CENTER

                  STATEMENT OF ARA BAGDASARIAN

    Mr. BAGDASARIAN. Thank you. I would like to begin by 
thanking the Congressional Small Business Committee for 
inviting me to testify today, on behalf of America's Small 
Business Development Centers, to share a few of my thoughts on 
the impact of community support for entrepreneurial 
development.
    As a serial entrepreneur, who founded his first enterprise 
before the age of ten, I believe that the opportunities for 
small businesses to innovate on a local, national, even global 
scale, have never been better than they are today. I say this 
not just because I am an unyielding optimist, but because I 
cannot think of a time in the whole of human history when such 
a wealth of resources and technologies were so readily 
available to anyone with a will and that most precious resource 
of all: an idea.
    I am the co-founder and Chief Executive Officer of 
Omnilert, the world's first emergency notification system for 
colleges and university campuses; though our customer base has 
since expanded to include private enterprise, government, and 
nonprofits from all across the country. As a company founder, I 
have developed a keen appreciation for the obstacles and 
challenges one must endure when embarking upon such a venture. 
In fact, a few years back, I took it to task to distill my 
experiences into a book, titled The Lemonade Stand, which I co-
authored. The Lemonade Stand is, simply put, the why-to book on 
entrepreneurship; a memoir based my own, real-world experience, 
revelations, successes, and, of course, ?failures.
    I have also served as a chairman for the Town of Leesburg, 
Virginia's Economic Development Commission, a post that I held 
for seven years, and am on numerous local and regional advisory 
boards, whose purpose are to advocate for entrepreneurship. It 
is from this vantage point that I have seen the positive 
returns that result when a community invests in and supports 
entrepreneurial development.
    That is why I was stumped when, ten years ago, I was asked 
for a Town of Leesburg marketing campaign why the town would be 
a good destination for entrepreneurs. I am embarrassed to admit 
that I could not think of a single reason other than the fact 
that our town was a ``quaint, idyllic community''. We had all 
the standard small business resources, a Small Business 
Development Center, SCORE, and a Chamber of Commerce, however, 
we did not have a community that was systematically supportive 
of local entrepreneurship. This realization led to a concerted 
effort on my part, and that of many others, to start building 
the infrastructure for an entrepreneurship ecosystem: a shared 
effort between community partners, both private and public, 
that was assembled program by program. The fruits of this 
effort, I believe, have yielded a model that can be replicated 
in large and small communities across America.
    It is through this model, and others like it, that 
communities suffering from high unemployment or the uprooting 
of key industry can plant the seeds of entrepreneurship and 
cultivate the growth of new businesses, through proper 
education and a supportive, local infrastructure. Much like 
civic infrastructure, such as highways or the power grid, 
communities can build and develop infrastructure to harness 
great ideas that solve problems to power the economy. We have 
taken significant steps in Loudoun County Virginia to build 
this ecosystem. And the three core aspects of this 
infrastructure are: entrepreneurship education. This means 
learning how to view problems as opportunities, knowing how to 
develop an idea to something real and tangible, and learning 
how to fail and how to learn from failure to build a world view 
that embraces challenges. Secondly, resources. A network of 
systems and programs that support the planning, creation, 
launch, and operations of a new venture. And, thirdly, 
community, which is developed by proactively creating 
opportunities to connect and discover synergies with one 
another through events, engagements, and other programs 
designed exclusively for founders and supporters.
    My written testimony outlines some of these key programs 
that we have implemented for each of these components.
    I believe that building the infrastructure to support the 
development of entrepreneurship is well within the means of 
every community in America, be it large or small. But the 
decision to go boldly forward is too often hindered by a fear 
of change, or a desire to hang on to the industries and ways of 
the past. Ironically, it was by embracing change that the great 
American industries of the past and present even came to exist. 
But in a world that the only constant is change itself, I 
believe that congress has a purview and responsibility to 
provide the incentives and support that will help the American 
entrepreneurs continue to lead the world in innovation and 
industry. That's why I believe it should advocate for the 
building for infrastructure for entrepreneurship through 
championing entrepreneurship education, support programs, and 
community engagement.
    Once this framework is built, an entrepreneurial ecosystem 
will develop and flourish incrementally. But this must be a 
deliberate effort requiring deliberate undertaking, requiring 
the participation of current entrepreneurs, businesses, 
communities and education leaders; as well as public sector 
cooperation, advocacy, and resources.
    Of course, what works in Leesburg may not work in Oxford, 
Mississippi or Charlotte, North Carolina. Every community has 
its own unique strengths and assets, but the ideas I have been 
grateful to present through my testimony amount to a framework 
of sorts for communities to empower its most resourceful and 
motivated to be a catalyst for positive economic and community 
change. There are thousands of communities around the world 
filled with smart, passionate individuals with brilliant ideas. 
We can all advocate for an initiative to develop 
entrepreneurship in America, and it all starts with the local 
community level.
    I thank the Chairman and Subcommittee members for the 
opportunity to testify this morning. Thank you.
    Chairman KELLY. Thank you, Mr. Bagdasarian. And I now 
recognize Mr. Braziel for 5 minutes.

                    STATEMENT OF ARA BRAZIEL

    Mr. BRAZIEL. Chairman Chabot, Subcommittee Chairman Kelly, 
Ranking Member Adams, members of the Subcommittee and members 
of the full Committee, thank you for inviting me today and for 
the opportunity to offer testimony on the work of MORTAR, and 
more specifically, the value of our partnership with SCORE.
    Today I would like to share why I believe that MORTAR and 
our partnership with SCORE, a national nonprofit that mentors 
aspiring and existing entrepreneurs, represents our best chance 
for everyone, regardless of background, to achieve full 
participation in the American dream.
    Founded in 2014, MORTAR works to create diverse communities 
by enabling historically marginalized entrepreneurs to access 
the resources needed to start and run successful businesses. 
Utilizing nontraditional methods, we take risks on an 
entrepreneur's abilities to start and grow businesses where 
others may not, providing an unparalleled connection to 
technical assistance, pop-up retail spaces to test ideas, and 
flexible ``friends and family''-styled micro-loans to grow 
businesses. Our business academy, for example, which works with 
mostly low-income, African American entrepreneurs, has a 96 
percent graduation rate and is considered a model program 
across the country.
    We exist because we believe that there are minority men and 
women all across our country, especially in our inner cities, 
with an undeniable amount of world-changing talent. People like 
my father, Dennis, who through athletic potential was adopted 
by his white high school football coach, giving him the 
opportunity to become the first person in his family to 
graduate from college, to become a published author, and father 
three amazing kids; one of them, my twin brother named Desmond 
Braziel, is serving our country as a Captain in the United 
States Army.
    Another example is MORTAR graduate Means Cameron. Last 
Friday, I met with Means, the owner of one of America's hottest 
clothing brands, Black Owned, and his SCORE counselor, Jim 
Stahly. And if you are nice to me, I promise to bring you all a 
t-shirt. They were meeting with me because Means, despite being 
college educated and the founder of a successful, hip street 
wear company, needed access to capital to grow his business. To 
see Jim, a white seasoned business executive, working with 
Means, an African American millennial entrepreneur from the 
inner city, seamlessly working through a sophisticated business 
plan, brought tears to my eyes. Jim's experience, coupled with 
Means' resourcefulness and MORTAR's resources, will help Means 
continue to succeed.
    The reality is that many people like Means will never have 
an opportunity for their dreams to be realized without support 
from organizations like MORTAR and SCORE. Our partnership with 
SCORE has helped MORTAR graduates to exceed national business 
averages.
    For example, we know that of the 170 graduates of MORTAR's 
program, 132 are still in business, with 71 percent engaged in 
our alumni support network. We estimate that in the past year 
alone our entrepreneurs have added $1 million to our regional 
economy. One graduate, Brian Jackson, is on pace to open 
Cincinnati's first black-owned brewery.
    The work of MORTAR is just getting started. We recognize 
that by partnering with organizations like SCORE, great things 
can happen. In four short years, we have worked together to 
offer 13 of our accelerated courses in 5 Cincinnati 
communities, and every graduate has received a mentor from 
SCORE. We have opened three additional pop-up spaces and SCORE 
continues to help us evaluate the feasibility of future 
expansion opportunities. In addition, we are applying our 
framework in Milwaukee, testing our approach to community and 
economic development for the first time outside of Cincinnati. 
We recognize the power in bringing together people of different 
backgrounds around a common shared passion for 
entrepreneurship. As a result, we have forged lifetime bonds 
between people who may have never met otherwise.
    Moving forward, our plan is to continue partnering with 
SCORE, working to teach entrepreneurship in communities where 
the next Steve Jobs, Kanye West, or Walt Disney may live. We 
see a country where with a MORTAR on every inner city corner, 
where the crazy dreamers who see the world differently will be 
encouraged, inspired and trained to change the world.
    Thank you for again for your time and for allowing me to 
testify. I am happy to answer any questions.
    Chairman KELLY. Thank you, Mr. Braziel. And thank your twin 
brother for his service to this great Nation. I am always 
impressed with those who choose to do that.
    Ms. Carter, you are now recognized for 5 minutes.

                 STATEMENT OF STEPHANIE CARTER

    Ms. CARTER. Thank you, Chairman Kelly, Ranking Member 
Adams, and distinguished members of the Subcommittee, for the 
opportunity to share this testimony with you.
    My name is Stephanie Carter, and I am founder and president 
of SCB Management Consulting, whose core services are program 
and project management, risk management, strategic planning and 
business process improvement as a subcontractor for the federal 
government and private sector organizations.
    I am testifying today on behalf of the Association of 
Women's Business Centers, which supports the national network 
of 107 WBCs throughout the United States.
    As you know, the WBC program is a public-private 
partnership with 30 years of success in providing training, 
counseling, mentoring, and access to capital to women 
entrepreneurs across the country. Women in businesses, like me 
and SCB.
    Today's hearing is a needed discussion. Too often we do not 
fully recognize the factors at the periphery of traditional 
business creation, despite their importance. I believe that the 
community fostered by the WBCs is playing a key role in my 
success, and its replication can only mean good things for 
women entrepreneurs nationwide.
    Business success is predicated on a host of factors, 
ranging from the expertise of the business owner, to wisdom of 
the business plan, to the ability to access capital, to picking 
the right location or marketing, to hiring the right staff. 
What is undeniable, however, is that those businesses that have 
a network of support behind them fare better than those 
without. In my view, here are a few reasons why.
    First, a network allows you to problem solve the early 
crises of launching and growing a business. Along the way, 
whether its incorporation or tax questions, to the logistics of 
office space or your first hire, there are myriad challenges in 
every business. When you have a network of fellow entrepreneurs 
you can collectively solve, and even anticipate, many of these 
issues. Second, a strong community helps identify new 
opportunities. Every business, whether 5 minutes or 5 
generations old, is seeking new opportunities. A community that 
understands your business and its offerings is incredibly 
helpful in spotlighting business development. Similarly, it 
also allows for teaming of entrepreneurs who may collectively 
offer an innovative solution to the market than individually is 
not available. Finally, and perhaps the hardest to define but 
also the most important, a community and network gives you the 
confidence to become an entrepreneur and the persistence to 
thrive after that business is created.
    All three of these were true for my business. I launched my 
business after nearly 20 years in corporate consulting and 
internal leadership roles. While I had the business, finance, 
and operations foundation of my Duke MBA and corporate roles, 
there were many aspects of entrepreneurship that I felt I 
needed including legal, tax, sales and marketing. I initially 
enrolled in entrepreneur and business planning courses with the 
Women's Business Development Center in Center City Philadelphia 
in early 2016.
    Once I was in the Washington DC area, and with the public 
sector being one of the greatest opportunities for consulting, 
I embarked on learning as much as I could. I took my first 
seminar with the WBC in July 2017. During that session, I 
learned about other WBC courses including the procurement 
series offered by Prince Georges County and Montgomery County. 
I started that six-part series in August 2017 because it 
offered a host of information about accessing the public sector 
market. The series culminated with a matchmaking session with 
procurement specialists in November.
    I enrolled in the procurement series for the business 
development information, however, I gained so many 
relationships that ultimately formed a community of support for 
my business. The WBC counselor who facilitated the series has 
become a great ongoing resource for business development 
opportunities, as well as other information. I forged a 
partnership with one of the speakers who noticed during my 
``elevator pitch'', that we may have some synergies, and 
currently pursuing business development opportunities together. 
I included one of the procurement series participants, who is 
just starting her consulting business, in a recent bid of mine. 
Public sector panelists have been very accessible and helpful 
in gaining a greater understanding of their respective 
organizations.
    It also is not just the network at the WBCs alone that has 
provided benefit. I learned of other networks at the WBC that I 
should engage and have expanded my ability to grow my business 
through them. I learned through the WBC courses that an 
effective market penetrator for new entrepreneurs such as 
myself are Woman and Minority certifications. As a newly 
certified WBE and MBE, I regularly attend informational and 
matchmaking sessions offered by the certifying agencies. I also 
attend a variety of forums, including those by the State of 
Maryland, ``Ready, Set, Grow'' monthly informational sessions 
offered by the Governor's Office that also offer the 
opportunity to meet industry leaders. As a result, I have begun 
to forge new relationships in the public sector.
    One of the first questions I often receive in these 
networks is ``where do you live?'' People are consistently 
shocked that I have traveled from Calvert County, which is in 
southern Maryland, to Baltimore, Columbia, Northern Virginia, 
et cetera, to attend an event. However, opportunities for the 
information and access that I need generally are not offered in 
Southern Maryland.
    My example is not unique. Companies hover around these 
networks and we must do a better job of creating communities of 
support in areas that need business growth the most.
    Similarly, we must continue to enhance the WBC program at 
SBA. With jurisdiction over the program, this Committee has the 
opportunity to make the benefits I have experienced more 
widespread. The limitations of an outdated authorization are 
evident in the day-to-day experiences of these centers.
    I encourage policymakers to consider legislation that would 
allow for more flexibility for WBCs, particularly eliminating 
the many burdens they face and choose not to operate in certain 
areas.
    The role of AWBC, who I am representing here today, should 
also be leveraged. Through statute, we should build on the best 
practices of other resource partners and allow for 
accreditation. Part of this process would ensure that every WBC 
has the skilled resources to develop communities of support for 
women business owners.
    Finally, Congress should increase the visibility of the WBC 
program. I encourage this Committee to use its extensive media 
abilities to talk about WBCs. The more we do that, the larger 
the community of support becomes.
    With the help of Congress, the SBA, and the WBC, I believe 
we can continue to build a community of support that will allow 
women entrepreneurs and small business owners around the 
country to realize their full entrepreneurial potential and 
contribute significant economic growth and job creation.
    Thank you again for this opportunity to testify.
    Chairman KELLY. Thank you, Ms. Carter. And I now recognize 
Ms. Bryant for 5 minutes.

                   STATEMENT OF TAMARA BRYANT

    Ms. BRYANT. Good morning. I would like to thank Ranking 
Member Alma Adams and Chairman Trent Kelly for the invitation 
to share with you the Veterans Business Outreach
    Center programs and services.
    Again, my name is Tamara Bryant. I am the director of the 
Veterans Business Outreach Center at Fayetteville State 
University, serving the States of North Carolina, South 
Carolina, and Kentucky. The Veterans Business Outreach Center, 
also called VBOC, is one the Small Business Administration's 
program that provides business training, counseling and SBA 
resource partner referrals to active duty service members, 
National Guard and Reserve personnel, veterans, and military 
spouses interested in starting or growing a small business.
    VBOC entrepreneurial program development programs is 
collaborations of resources and partnerships are critical 
success factors for VBOC's mission and to help increase the 
success rate of Veteran-owned businesses.
    VBOC is hosted by at Fayetteville State University College 
of Business and Economics, a historically black college 
university, and it is known for its support of military-
affiliated students through serving large numbers of active 
duty soldiers, their spouses and families, as well as veterans. 
This collaboration with FSU is a natural fit for VBOC's target 
customers. It has allowed VBOC the opportunity to collaborate 
and partner in the College of Business and Economics 
Entrepreneurship Programs, such as small business consulting 
teams. The small business consulting teams are undergraduate 
and graduate students, and many of the students are military 
affiliated, minorities and women, that work closely with our 
clients to solve business needs in areas of marketing research, 
feasibility studies, to name a few.
    These student engagement opportunities provide the students 
with real world educational experience, focused on helping 
small businesses and our clients receive valuable assistance at 
no charge.
    FSU-VBOC is extremely fortunate to have great partnerships 
with highly valued resource partners. We understand our clients 
come with a unique technical skill set, impeccable leadership 
skills, core values, and a mission focused mindset. But often 
times they may lack business acumen skills or the ability to 
transfer their military skills into an entrepreneurial career 
pathway.
    FSU-VBOC client base is very diverse, serving over 400 
clients this past fiscal year, 47 percent minority and 21 
percent women with various needs.
    I would like to highlight one successful client for whom 
VBOC leveraged other resources that yielded the clients' great 
results. Marcella Eubanks, Army Veteran, 82nd Airborne, owner 
of Bravery Kids Gym, came to VBOC with her idea of owning an 
all-inclusive children's gym with a focus on children with 
special needs. She received assistance with developing her 
business plan and startup assistance and referral to a local 
community bank to obtain and SBA loan. She came back to the 
Center for other services because she viewed the staff at VBOC 
as a trusted advisor and was willing to work with other 
agencies. She has been referred to the SBTDC for specialized 
training in QuickBooks and utilized College of Business and 
Economics student internships. These referrals have helped her 
hire six part-time employees and win pitch competitions, 
improve the business operations and marketing systems.
    This is one of many success stories demonstrating FSU-
VBOC's collaboration with resource partners and local 
organizations to deliver desirable outcomes for our clients.
    Veteran-owned businesses are the pillars to the American 
economy. Nearly one in ten businesses are veteran-owned Veteran 
women-owned business steadily increase each year. Fifteen 
percent of business are owned by veteran women. The past fiscal 
year for VBOC network was marked by very significant levels of 
outreach, training, and services for veteran-owned and military 
spouses small businesses. Over 1700 training events were held, 
178 businesses created, and 1006 jobs created and retained, 243 
prime and subcontracts awarded, and $8.5 million in SBA loans 
approved.
    Most of the VBOC centers cover multiple states and attend 
Boots to Business course, all with a budget of $6 million.
    The 22 Veterans Business Outreach Center through its 
cooperative agreement is committed to ensuring that every 
service member and military spouse has the resources they need 
in their communities to start and operate small businesses, 
achieve post-secondary career success, and strengthen the 
Nation's economy.
    My ask to you is to continue to support VBOC's services to 
increase the success rate of this highly skilled workforce.
    Again, thank you for this opportunity to share and 
represent the VBOC program, a program that helps our service 
men and women and veterans who fought, protect, and serve this 
great Nation.
    Thank you.
    Chairman KELLY. Thank you, Ms. Bryant. I now recognize 
myself for 5 minutes of questions.
    First of all, Ms. Bryant, I just want to comment. I am a 
huge supporter of the VBOC. We have one at Mississippi State 
University and they do such a great job with both our veterans 
and communities and making sure that we have those small 
businesses that are veteran-owned. Because we know what is in 
their heart, we have just got to make sure they have the right 
tools, and I really appreciate our VBOCs for doing that.
    And, Ms. Carter, your testimony mentions a great deal about 
networking opportunities within a Women's Business Center, WBC. 
What role does community networking play in encouraging small 
business creation?
    Ms. CARTER. Well, it has provided a tremendous opportunity. 
So the example I gave where a speaker actually did outreach, 
but they also encouraged us while we were in those sessions to 
think about teaming with each other, right. So we are not 
competitors, we might have many synergies. And so that is 
exactly what I did. So I was able to do that recently on a bid. 
I met a woman who had similar experience to me and we might be 
competitors one day, but right now we are partnering together.
    Chairman KELLY. You know, I am an old business guy. I have 
been out so long I don't even remember what it is, but I know 
you never have one store in a mall, you have four anchor stores 
because even though you are competitors you also share a lot 
and you generate. So I really appreciate your comments on that. 
And I am proud of what you have been able to accomplish.
    Mr. Braziel, you discussed the success of the partnership 
between SCORE and MORTAR in your testimony. How does this 
partnership harness the existing knowledge within the community 
to enable small business success?
    Mr. BRAZIEL. I would say that the folks that SCORE are able 
to offer for our entrepreneurs are invaluable because they 
bring with them many a times decades of business experience 
that our entrepreneurs would never have access to without 
having that relationship with SCORE. I would say that the value 
of a successful business person is the network that they have. 
And SCORE brings not just a network of other coaches, but their 
own personal networks. Our SCORE coaches have provided so many 
connections just from that initial interaction. So, for us, 
there is a value in resource exchange that SCORE offers, but it 
is also the networks that SCORE is able to offer for the 
entrepreneurs that we are working with.
    Chairman KELLY. And once again, I mean it is so important 
to know where the resources and the things that you need to do 
that, but it is also important for people to believe in you.
    Mr. BRAZIEL. Right.
    Chairman KELLY. And to know. As my daddy used to tell me 
when I was a kid, he said, you know, we are often scared to do 
things because we are scared of being told no or failing. And 
my daddy always said you start at no and if you don't do 
anything you stay there.
    So I think all of these organizations do that. I think they 
help people get off no and to do things and to have at least 
chance possible of failing, but they encourage them to reach 
out and chase their ideas.
    Mr. Bagdasarian, your testimony refers to the need for 
strong community to support small business growth and creation. 
What role do small businesses play in creating strong 
communities?
    Mr. BAGDASARIAN. It plays a very important role, because I 
believes it takes entrepreneurs to create more entrepreneurs, 
to encourage, as you mentioned, to provide the resources, 
connecting the experiences of experienced entrepreneurs, some 
of the challenges they face. The reality is most startups, most 
new businesses will fail. It will fail many times. I know in my 
personal experience, prior to starting Omnilert I had three or 
four businesses that never took off. And so knowing that, 
having the confidence to go back and the resilience to go back 
and try again, try again, because something will fit if you are 
solving a problem that is not being met in the community. There 
is an opportunity there.
    And it is important also I think there is a cultural 
factor, building a culture that you can do it, it can be done, 
versus simply find a good job. But you can do this. And that is 
probably the biggest obstacle to taking that the first step to 
starting a business.
    Chairman KELLY. Thank you. Ms. Bryant, given the limited 
number of VBOCs, how do you work with other entrepreneurial 
development resource partners to ensure that returning veterans 
find a supportive community?
    Ms. BRYANT. Because everybody gave into the FSU, the 
support that we have in North Carolina has been tremendous and 
critical. We have been fortunate to have Entrepreneurial 
Development programs such as SCORE, such as the Women's 
Business Center, and SBTDC, in that area. We are also fortunate 
in North Carolina to have another State government program 
called the Small Business Centers of North Carolina. And so 
collaboratively together we are able to assist veterans, 
military spouses in starting and growing small businesses by 
working together with different developmental programs and 
getting access to loans and procurement opportunities.
    Chairman KELLY. Thank you. And I yield back the balance of 
my time. And I now recognize our Ranking Member, Ms. Adams, for 
5 minutes.
    Ms. ADAMS. Thank you, Mr. Chairman, and thank you all for 
your testimony.
    Beyond SBA's business assistance services there are a 
number of training opportunities and resources available to 
veteran-owned small businesses, such as partnerships between 
VBOCs and college campuses. Ms. Bryant, can you explain how 
effective educational classes can be for entrepreneurs and 
whether they are an efficient way to supplement other training 
programs?
    Ms. BRYANT. Thank you, Congresswoman, for that question. 
Yes, another example I would say is one course that is offered 
like at Fayetteville State University is called our small 
business management course. With this course it teaches 
business concepts and strategies and principles on how to 
operate a successful small business. A lot of times you have 
minorities and women that are in those classes. Those classes 
also are required that they work with a local entrepreneur to 
assist them with that business need that they have. This allows 
that student to be exposed to real world examples and be able 
to apply the knowledge that they learn in the classroom to a 
real world example of helping that small business.
    So that is an example that we give in terms of how class 
and real world can come together to help small businesses, as 
well as the student, gain that particular skill set to be able 
to get the job.
    Ms. ADAMS. Great. Thank you very much. I am a strong 
advocate of HBCU, started the first bipartisan HBCU caucus 
here, which I co-chair with Congressman Bradley Byrne from 
Alabama, graduate twice of North Carolina A&T State University, 
40 years on the campus of Bennett College.
    But, given your position on an HBCU campus, how important 
is it to coordinate the coordination between government, 
private industry, educational institutions, and nonprofits in 
advancing the position of entrepreneurs? And where can Congress 
better support your efforts?
    Ms. BRYANT. I will say to continue to provide access to 
affordable and accessible education for these students. A lot 
of time these are minorities and women, and first generational 
children that are looking to obtain a degree. Having these 
programs in place will allow them and expose them to 
opportunities that they would not have before. So having that 
access to affordable education will assist not only those 
students, but it will also assist the small businesses where 
they have a high skill set to be able to continue to grow and 
sustain their business.
    Ms. ADAMS. Thank you. Mr. Braziel, could you please 
describe the efforts made to recruit volunteers from different 
backgrounds and how that has impacted the business ownership in 
your community?
    Mr. BRAZIEL. Yes. I would say first and foremost, SCORE has 
stepped to the plate and provided the lion's share of the 
volunteering for the entrepreneurs who are going through our 
program. And that has been an amazing partnership for our 
organization. I would also say that from that experience many 
other people who may have maybe been nervous our anxious about 
working with our entrepreneurs have stepped forward to 
sometimes even double up to volunteer and provide business 
support for MORTAR graduates.
    I would say, in a lot of ways the MORTAR program and our 
partnership with SCORE has become an example to our community 
on how race relations can continue to improve. We have mostly 
again low income African Americans, and SCORE sometimes can be 
a little seasoned in white. But our folks are coming together 
around a shared common objective and the partnership is 
amazing. We do these surveys at the end of every class and five 
is a perfect score from a satisfaction perspective, and no 
survey has gone under 4.6 out of 5. So that initial 
relationship with SCORE around business coaching has been 
amazing and acted as a multiplier effect, that now we are 
seeing someone from our board, who is an African American male, 
he is now joined SCORE's corps of volunteers and he is now 
providing business support for other not just graduates of 
MORTAR's program, but other participants who go through SCORE.
    So I would say that MORTAR has provided this great example 
of what is possible and we are seeing a lot of growth from our 
volunteers.
    Ms. ADAMS. Thank you very much. I have got 38 seconds. Mr. 
Bagdasarian, some of the obstacles unique to startup, if you 
can maybe give me one?
    Mr. BAGDASARIAN. Fear. Fear is probably the greatest 
obstacle, not knowing what needs to be done. I have worked with 
hundreds of entrepreneurs or would-be entrepreneurs over the 
years and the greatest obstacle is the expectation that I need 
to write a 500 page business plan and then go out and raise $15 
million of seed capital, and then go get a big office. Just 
knowing how to take that first step. Like I mentioned, there 
has never been a better time to start a business than now 
because there are so many resources that are available today 
that did not exist 20 years ago.
    Ms. ADAMS. Great. Right on time. Thank you, Mr. Chairman. I 
yield back.
    Chairman KELLY. The gentlelady yields back. I now recognize 
Dr. Marshall from Kansas for 5 minutes of questions.
    Mr. MARSHALL. Good morning, everybody. First question would 
be, to kind of continue, what are the biggest barriers to 
market, to enter the market? And then what are the biggest 
reasons for lack of long-term success? So barriers to entering 
the market to start a small business, and then barriers to keep 
you from being successful?
    And maybe just spend 15 or 20 seconds with each one of you, 
2 or 3, right off the top. Maybe start with Ms. Bryant on the 
far end and then we will come back.
    Ms. BRYANT. Some of the barriers that I see a lot of small 
businesses face is access to capital. A lot of times not 
knowing what that financial literacy is and what it takes to 
obtain that capital. Another barrier is not understanding some 
of the small business skill sets that it takes, especially in 
our veteran population. They understand and know what it is 
like being in the military, but translating that military skill 
set onto an entrepreneurial pathway and understanding those 
business skills of marketing and sales, and having that 
technical assistance to be able to help them navigate that 
system.
    Mr. MARSHALL. Ms. Carter, anything to add?
    Ms. CARTER. Yes. As I mentioned during my testimony, there 
are probably many barriers. The ones that come to mind 
particularly are some skills that you currently don't have. And 
what is most important is building your business is sales and 
marketing. So the technical skills that I have been able to 
gain through the WBC, as well as I have taken sessions with 
SCORE and SBDC, have been extremely helpful.
    The other is access to capital. So one of the things that I 
continually fall into is, you know, when I bid on something do 
I have the staff. Well, I can't hire the staff until I have the 
contracts. So it is this cycle until someone, you know, kind of 
gives me the opportunity and I am able to do that.
    Mr. MARSHALL. Okay.
    Mr. BRAZIEL. I would briefly add unconscious bias. I think 
a lot of times we expect for successful entrepreneurs to look a 
certain way, to speak a certain way, to behave a certain way. 
But a lot of time there are entrepreneurs who are out there who 
may not understand social norms. So maybe they use slang, or 
maybe they have misspellings in their business plans. And 
despite all of those things they still have a viable idea, and 
if given an opportunity and some access to capital, they could 
be successful. But until we are able to dismantle some of the 
biases we have around successful entrepreneurship, those folks 
will continue to be left behind.
    Mr. MARSHALL. Okay.
    Mr. BAGDASARIAN. The only thing I would have to add is 
knowing, understanding the product market fit and understanding 
that the first idea, the first business that you may take to 
market, the initial market may not be the market that you 
ultimately pursue that has the greatest growth. But having the 
right mentors, having the right advice resource, having that 
community that provides that support, may provide you with that 
insight on which direction to take. And that happens all too 
often.
    Mr. MARSHALL. Okay. I am surprised nobody said the cost of 
healthcare. I think the cost of healthcare would be one of the 
biggest barriers for someone to leave a job and start a new 
business.
    Talk about the Tax Cuts and Jobs bill. Has the Tax Cuts and 
Jobs bill, is it impacting any of your businesses? Do you see 
it going forward impacting it?
    Maybe we will start here and go back that way.
    Mr. BAGDASARIAN. It has not directly impacted my business. 
If we were required to distribute funds towards headcount, for 
example, that maybe more of an incentive to hire people, 
reinvest those funds back into the business. But it has not 
made a direct impact into my specific business.
    Mr. MARSHALL. Are you a C Corp an LLC or an S Corp?
    Mr. BAGDASARIAN. We are an LLC.
    Mr. MARSHALL. And you don't think lowering the LLC tax is 
going to help you any?
    Mr. BAGDASARIAN. Well, it certainly helps, but as far as 
driving new job growth, I don't think it is directly tied to 
creating new jobs. I think that it certainly helps from a 
business owner perspective.
    Mr. MARSHALL. Okay.
    Mr. BAGDASARIAN. I could go into more depth later.
    Mr. BRAZIEL. I would briefly add that I think our folks are 
so far behind that it hasn't directly affected them yet.
    Mr. MARSHALL. So decreasing their taxes, giving the $2000 
more, the average salary, in their own pocket, is not impacting 
them in any way?
    Mr. BRAZIEL. In the conversations that I have had with our 
graduates, they have not communicated that that has been a 
benefit for them. So it is possible, but I have not had those 
direct conversations yet.
    Mr. MARSHALL. Okay. Ms. Carter?
    Ms. CARTER. Because I am so small, I think it may make an 
incremental business, but not significant at this point, stage 
in my business.
    Mr. MARSHALL. Okay. Ms. Bryant?
    Ms. BRYANT. We have had some businesses that have said that 
the bill have helped and some that said it has not. In regard 
to have helped, it does help them in regards to being able to 
put more funds to their business. If that be via being able to 
purchase additional equipment or hire a new personnel.
    Mr. MARSHALL. Yes. I have talked to tens, maybe hundreds of 
companies that are making capital purchases because they can 
write it all off. I talked to an accountant where 96 out of 100 
of his clients in a small rural Kansas community are seeing 
significant tax benefits in their own pocket as well. And this 
American consumer is what drives this economy.
    Thank you.
    Chairman KELLY. The gentleman yields back. I now recognize 
Mr. Norman from South Carolina for 5 minutes.
    Mr. NORMAN. Thank you, each one of you for taking your time 
out today. Regulations. I know I am a small business owner. 
What regulation would you cut if you had the opportunity? And 
address the workforce. I am having trouble with as you 
mentioned, Mr. Braziel, people coming to work; they have either 
never worked before or they don't have the basic skill set to 
interact with people. How do we address that?
    Mr. BAGDASARIAN. Well, typically, the regulations that my 
business encounters are really industry specific, specifically 
with telecommunications, because we work with cellular 
providers, and they are really specific to that. So in the 
context of this discussion I really don't have any specifics to 
share with you.
    Mr. BRAZIEL. I would say the Jobs Act has been a great 
start to open the flow of capital for entrepreneurs. But I 
would say that, again, what we are looking for from the 
threshold to have people even able to access those initial 
resources can be very challenging for people that are coming 
from a different culture.
    I would also argue that even though somebody may not speak 
or behave based upon traditional social norms, they still, in 
my opinion, could run successful businesses.
    I like to often give this example of when I go to my local 
Kroger down the street I get asked all the time if I want a 
ride. And in my opinion that same idea could have been 
translated into an Uber, it is ride sharing. However, there is 
other access to technology or capital, or whatever it might be, 
to start that kind of a business. So I would say that if we can 
do more to unlock the flow of capital for those kinds of 
entrepreneurs, the better.
    Mr. NORMAN. Let me follow up with this, now how would you 
do that? I mean when you go for a loan at a bank you have got 
to have--they have shareholders too. How would you say to do 
that?
    Mr. BRAZIEL. Sure. Let us say you are my uncle, which would 
be an honor, and it was Thanksgiving, and I said could you loan 
me $500. I doubt that you would ask me for my credit score, for 
collateral, for some of these other things, because you know me 
and you know my track record. You would hopefully give me a 
loan. I think the same thing could apply to how we offer access 
to capital for disadvantaged entrepreneurs, just to give them a 
leg up. Maybe it is lower amounts of capital, but we can lower 
collateral, interest rates, et cetera, to still give them an 
opportunity to at least test their business ideas.
    Ms. CARTER. With respect to the workforce, I think as a 
small business owner we have tremendous opportunities when we 
can. So I actually just recently formed a nonprofit 
organization, called the Vendor Community Partnership, to try 
to address the crime in downtown Baltimore. There is a 
tremendous problem with joblessness. I believe it starts with 
education and opportunities. So the nonprofit has formed a 
partnership with the Downtown Partnership of Baltimore and 
those large business--we created a preferred vendor list of 
small businesses. Those small businesses get on the list if 
they hire at least one person from these underserved 
communities. We are partnering with some nonprofits who will 
help with the job training, preparing, you know, many people 
who want to work but just haven't had the opportunity. So they 
will be prepared to work, they will show up every day, and they 
will be productive citizens. And we believe that that is also 
going to, you know, have a positive impact on the crime and 
overall allow people to contribute to their families.
    Ms. BRYANT. In regards to the lack of the workforce as 
well, I agree. I think we need to continue to work with the 
local high schools, the community colleges, the universities, 
and collaborate with the business industries, and to find out 
what are those skill sets that they are looking for, continue 
to implement more programs in the high schools and community 
colleges with the 21st century skills that are lacking from 
interpersonal skills, those things that are lacking the 
workforce. To be able to assist them and help those small 
businesses obtain and retain those students. I think education 
and exposure is the key to be able to try and recruit and train 
highly skilled employees.
    Mr. NORMAN. Yes. And I think you all in your role, when you 
go into these schools, high schools particularly, we ought to 
stress we have customers to please now. There is a sense of not 
understanding that you have got a boss, you have got customers 
you have to sell your product to. And there is a certain 
responsibility that comes with that.
    Thank you all. I yield back, Mr. Chairman.
    Chairman KELLY. Thank you. And I just want to thank all 
four panel members. You know, one thing you didn't mention, Mr. 
Braziel, you kind of hit on it, is role models are so 
important, to see successful people. And I look at the panel 
that I have got sitting in front of me, and I know, as Chairman 
Chabot likes to say, all 30 people watching C-SPAN right now 
can--but, you know, it is important, each of you represent role 
models that people can look up to and they believe they can do 
it right. And I go back to believing you can succeed is the 
very first step and all those other things before they can even 
fall into place.
    And I would like to thank everyone for joining us today. 
The community-small business relationship is a vital factor in 
not only the success of the individual community and small 
businesses, but also in the growth of the United States economy 
overall.
    I would particularly like to thank our witnesses.
    I do want to mention, Congressman Velazquez, the Ranking 
Member, is coming. I am already in the middle of closing and I 
am going to close. But I hope you all will stay around and talk 
to her. She is quite a phenomenal team player on this 
Committee. And I have got to get to another Committee and I 
know Ms. Adams does too, but I do ask that you stay around and 
please take the opportunity to talk to her because she is a 
phenomenal member of this Committee.
    I would particularly like to thank our witnesses for their 
testimony. I appreciate each of your insights into this 
relationship and what Congress can do to further foster this 
relationship going forward.
    Now, I ask unanimous consent that members have five 
legislative days to submit statements and supporting materials 
for the record. Without objection, so ordered.
    We are adjourned.
    [Whereupon, at 12:04 p.m., the Subcommittee was adjourned.]
    
                            A P P E N D I X


                Testimony of Mr. Ara Bagdasarian

                 Co-Founder & CEO Omnilert, LLC

             Co-Author ``The Lemonade Stand'' Book

 ``Community Support: Entrepreneurial Development and Beyond.''

             Before The Committee on Small Business

   Subcommittee on Investigations, Oversight, and Regulations

    I would like to begin by thanking the Congressional Small 
Business Committee for inviting me to testify today, on behalf 
of America's Small Business Development Centers, to share a few 
of my thoughts on the impact of community support for 
entrepreneurial development on local communities and economies. 
As a serial entrepreneur who founded his first enterprise 
before the age of 10, a neighborhood lawn and gardening service 
called ``KidCo,'' I believe that the opportunities for small 
businesses to innovate on a local, national--even global 
scale--to be sure, there are challenges to be faced and 
overcome--but because I cannot think of a time in the whole of 
human history when such a wealth of resources and technologies 
were so readily available to anyone with a will and that most 
precious resource of all: an idea.

    I am the co-founder and Chief Executive Officer of 
Omnilert, LLC, the world's first emergency notification system 
for college and university campuses; though our customer base 
has since expanded to include private enterprise, government, 
and nonprofits from all across the country. As a company 
founder, I have developed a keen appreciation for the obstacles 
and challenges one must endure when embarking upon such a 
venture.

    In fact, a few years back, I took it to task to distill my 
experiences into a book, titled ``The Lemonade Stand,'' which I 
co-authored. ``The Lemonade Stand'' is, simply put, the why-to-
book on entrepreneurship; A memoir. Based my own, real-world 
experience, revelations, successes, and, of course, failures.

    I have also served as the Chairman for the Town of 
Leesburg, Virginia's, Economic Development Commission; a post 
that I held for 7 years. And I am on numerous local and 
regional advisory boards, whose purpose are to advocate for 
entrepreneurship. It is from this vantage point that I have 
seen the positive returns that result when a community invests 
in and supports entrepreneurial development.

    That's why I was stumped when, 10 years ago, I was asked, 
for a Town of Leesburg marketing campaign, why the town would 
be a good destination for entrepreneurs. I'm embarrassed to 
admit that I could not think of a single reason other than the 
fact that our town was a ``quaint, idyllic community''. We had 
all the standard small business resources--SBDC, SCORE, and a 
Chamber of Commerce--,however, we did not have a community that 
was systematically supportive of local entrepreneurism.

    This realization led to a concerted effort on my part, and 
that of many others, to start building the infrastructure for 
an entrepreneurship ecosystem: A shared effort between 
community partners--both private and public--that was assembled 
program by program. The fruits of this effort, I believe, have 
yielded a model that can be replicated in large and small 
communities across America.

    It is through this model--and others like it--that 
communities suffering from high unemployment or the uprooting 
of key industry can plant the seeds of entrepreneurship and 
cultivate the growth of new businesses--through proper 
education and a supportive, local infrastructure.

    Much like civic infrastructure--such as highways or the 
power grid--communities can build and develop infrastructure to 
harness great ideas that solve problems to power the economy. 
We have taken significant steps in Loudoun County Virginia to 
build this ecosystem. The three pillars of this infrastructure 
are: entrepreneurship education, resources, and community. Here 
are some of the key programs developed as part of our plan--
though it is, by no means, a comprehensive list:

    I. Entrepreneurship Education

    The foundation for developing a community support system 
for entrepreneurship is education. The objective is to develop 
the entrepreneur mindset or perspective. This means viewing 
problems as opportunities, knowing how to develop an idea into 
something tangible, learning how to fail and how to learn from 
failure to build a world view that embraces challenges. A few 
of the programs implemented in Loudoun County to support 
Entrepreneurship Education include:

          <bullet> School Curricula (Lemon Lessons, 
        IncubatorEdu) - In 2011 we introduced one of the 
        country's first Entrepreneurship Education curricula to 
        several high school business programs. The Lemon 
        Lessons curriculum, based on the why-to-book on 
        entrepreneurship that I co-authored (``The Lemonade 
        Stand'') supplemented the overall business and 
        marketing curricula. Today, there are a number of 
        Entrepreneurship Education curricula designed for high 
        schools and higher education is offering major studies 
        in entrepreneurship. They encompass hands-on skill 
        development including speaking, listening, and writing 
        while developing critical thinking skills and analysis. 
        I recently had the privilege of teaching an 
        entrepreneurship course at Shenandoah University which 
        also has a Loudoun campus.

          <bullet> Step Up Loudoun/Loudoun Youth - As 
        entrepreneurship is based on problems in need of a 
        solution, this program started in 2013 by Loudoun Youth 
        Inc., challenges high school students to identify an 
        issue and create a plan to address the issue, and most 
        importantly, implementing the plan. Students learn the 
        lifecycle of developing ideas into real products or 
        programs and are supported by business leaders during 
        the process. Link to Program

          <bullet> Young Entrepreneurs Academy - A program 
        initiated through the Loudoun Chamber of Commerce and 
        Small Business Development Center was in 2016 to 
        provide a 7-month extracurricular program that teaches 
        middle and high school students the fundamentals of 
        entrepreneurship. In addition to learning the core 
        principles, students work on their own startup business 
        or program. Students are then paired with an 
        experienced entrepreneur to mentor for several months 
        to develop their new venture and prepare for a pich 
        event. Link to Program

          <bullet> Academies of Loudoun - To further fortify 
        the educational foundation for entrepreneurship, in 
        fall 2018 a new magnet high school which focuses on 
        Science, Technology, Engineering, and Math with a 
        pathway in Entrepreneurship is opening. Again, the key 
        is to teach the entrepreneur mindset and creating 
        tangible solutions from challenges. Opportunities to 
        innovate surface when entrepreneurship is overlaid with 
        Science, Technology, Engineering, and Math. Link to 
        Program

    II. Support Programs

    A network of systems and programs to support the planning, 
creation, launch, and operations of a new venture. In Loudoun 
we have a number of programs that help entrepreneurs take new 
businesses to market:

          <bullet> Small Business Development Center - The 
        Loudoun SBDC has been the primary source of support for 
        small business since 1988. The SBDC provides counseling 
        on the mechanics of starting and launching a business. 
        Frequent seminars provide an additional educational 
        resource for individuals interested in learning what is 
        required to start a business, fundamentals of small 
        business marketing, sales, accounting, and operations. 
        The SBDC manages a network of experienced entrepreneurs 
        and professionals who advise clients at no cost. One-
        on-one advising has proven to be an invaluable tool for 
        countless entrepreneurs I have encountered. Over the 
        years, I have utilized the counseling services to help 
        vet new ideas, structure partnerships, and various 
        other operational assistance. Link to Program

          <bullet> George Mason University Enterprise Center 
        (MEC) - In 2011, this small business incubator was 
        established through a partnership between the Town of 
        Leesburg, Loudoun County, and George Mason University. 
        The facility and programs are operated by George Mason 
        University acts as a ``one stop shop'' for many of the 
        county's entrepreneurship programs. In addition to 
        providing shared office space to 46 startup members, 
        meeting rooms, and training space, the MEC is the home 
        of the Loudoun Small Business Development Center, 
        SCORE, and Town of Leesburg Department of Economic 
        Development. This unique destination frequently 
        inspires collaboration with it's entrepreneur members, 
        and I have frequently jumped into a whiteboard session 
        to brainstorm ideas with other incubator members. Link 
        to Program

          <bullet> Loudoun Lemonhead Council - In 2012 a group 
        of seasoned entrepreneurs formed an organization to 
        share their experiences by acting as a sounding board 
        for emerging entrepreneurs. At meetings, presenting 
        entrepreneurs pitch their new venture, share their 
        challenges, and discuss opportunities. Connections are 
        frequently made into professional networks, plus 
        ongoing support and mentorship continues following the 
        session. Also, ``Lemonhead'' entrepreneurs are invited 
        to share their story as guest speakers in high school 
        classes. As an member, I frequently meet and advise a 
        number of entrepreneurs who have presented at Council 
        meetings. Link to Program

          <bullet> SCORE - In 2013, this program which provides 
        experienced mentors to advise entrepreneurs opened a 
        Loudoun Chapter to serve our growing community. This 
        group of vetted advisors share their experience with 
        specific domains. I utilized SCORE to help with the 
        legal structure of an early venture, and continue to 
        use SCORE advisors for various perspectives. Link to 
        Program

          <bullet> 1 Million Cups (1MC) - A program started by 
        the Kauffman Foundation where entrepreneurs pitch their 
        idea to an open group of entrepreneurs was introduced 
        to our community in 2013. This facilitates open 
        discussion, insight, and feedback to help develop new 
        business ventures. IMC meets weekly at the George Mason 
        Enterprise Center. This brings the entrepreneurship 
        community together to foster a dynamic of collaboration 
        and collective support. In many cases, startups present 
        to the Lemonhead Council for a deeper dive after they 
        present at 1MC. Link to Program

          <bullet> Economic Development (County and Local) - As 
        a testament to our community's support of 
        entrepreneurial development. In April 2015 Loudoun 
        County's Department of Economic Development hired a 
        dedicated Small Business and Entrepreneurship Manager. 
        This Manager serves as a central point of contract for 
        entrepreneurs, connects them with resources, and 
        creates synergies between entrepreneurial partners. 
        Both Loudoun County and Town of Leesburg advocate for 
        and are key partners in building community support for 
        entrepreneurial development. Link to Program

    III. Community

    Finally, fostering a collaborative community of 
entrepreneurs, investors, mentors, educators, and community 
leaders to live and thrive within this ecosystem must be a very 
deliberate effort. Community is developed by proactively 
creating opportunities to connect; and discovering synergies 
with one another through events, engagements, and other 
programs designed exclusively for founders and supporters.

    In Loudoun, we started 5 years ago with a monthly founders-
only networking event, and now have a number of MeetUp groups, 
guest speakers, happy hours, and pitch events. This helps 
cross-pollinate relationships be4tween complimentary startups 
and entrepreneurs. Unlike typical business networking events, 
`entrepreneur networking events' do not encourage the 
participation of those soliciting professional services. They 
tend to be more collaborative and supportive in nature. Often 
new innovations emerge though collaborations and partnerships.

    After 7 years of development, we have a growing 
entrepreneurial community functioning within an ecosystem 
supported by a solid infrastructure.

    Conclusion

    I believe that building the infrastructure to support the 
development of entrepreneurship is well within the means of 
every community in America--be it large or small. But the 
decision to go boldly forward is too often hindered by a fear 
of change; or a desire to hang on to the industries and ways of 
the past.

    Ironically, it was by embracing change that the great 
American industries of the past--and present--even came to 
exist. But in a world where the only constant is change itself, 
I believe that Congress has the purview and responsibility to 
provide the incentives and support that will help American 
entrepreneurs continue to lead the world in innovation and 
industry. That is why I believe it should advocate for the 
building of infrastructure for entrepreneurship through 
championing entrepreneurship education, support programs, and 
community engagement.

    Once this framework is built, an entrepreneurial ecosystem 
will develop and flourish incrementally. But this must be a 
deliberate undertaking, requiring the participation of current 
entrepreneurs, businesses, communities and education leaders; 
as well as public sector cooperation, advocacy, and resources.

    Of course, what works in Leesburg may not work in Oxford, 
Mississippi or Charlotte, NC. Every community has its own 
unique strengths and assets. But the ideas I've been grateful 
to present to you here today amount to a blueprint, of sorts, 
for communities to empower its most resourceful and motivated 
to be a catalyst for positive economic and community change. 
There are thousands of communities around the country filled 
with smart, passionate individuals with brilliant ideas. All 
that is needed is the blueprint.
                        Derrick Braziel

                       Managing Director

                             MORTAR

          Statement to the Committee on Small Business

             United States House of Representatives

   Subcommittee on Investigations, Oversight, and Regulations

 ``Community Support: Entrepreneurial Development and Beyond''

                         April 12, 2018

    Chairman Chabot, Ranking Member Velazquez, Subcommittee 
Chairman Kelly, Ranking Member Adams, members of the 
subcommittee and members of the full committee: Thank you for 
inviting me today and for the opportunity to offer testimony on 
the work of MORTAR and more specifically, the value of our 
partnership with SCORE.

    When I was in college, I was introduced to a quote by 
Author Stephen Gould. Mr. Gould said that he was, ``less 
interested in the weight and convolutions of Einstein's brain 
than in the near certainty that people of equal talent have 
lived and died in cotton fields and sweatshops.''

    Founded in 2014, MORTAR works to create diverse communities 
by enabling historically marginalized entrepreneurs to access 
the resources needed to start and run successful businesses. We 
exist because we believe that there are minority men and women 
all across our country--especially in our inner cities--with an 
undeniable amount of world-changing talent. People like my 
father, who through athletic potential was adopted by his white 
high school football coach, giving him the opportunity to 
become the first person in his family to graduate from college, 
become a published author and father three amazing kids, one of 
which, my twin brother named Desmond Braziel, who serves our 
country as a Captain in the United States Army.

    For the past four years, MORTAR has worked in Cincinnati to 
uncover latent entrepreneurial talent operating under the 
surface over our urban neighborhoods. We believe that any 
entrepreneur can thrive--when equipped with the right resources 
and hustle.

    Our strategy is a practical solution to a common problem 
for minorities across the country--it's very difficult to 
access the resources needed to start and grow businesses. 
Further, with the rapid gentrification of neighborhoods, many 
indigenous entrepreneurs are not connected to opportunities to 
prevent displacement while increasing engagement.

    Utilizing non-traditional methods, we take risks on an 
entrepreneur's abilities to start and grow businesses where 
others may not, providing an unparalleled connection to 
technical assistance, pop-up retail spaces to test ideas, and 
flexible, ``friends and family''-styled micro-loans to grow 
businesses. Our business academy, for example, which works with 
mostly low-income, African-American entrepreneurs, has a 96% 
graduation rate and is considered a model program across the 
country.

    Our innovative work provides a critical piece of our 
Cincinnati's startup ecosystem, showing what's possible when 
people work together towards a common goal, elevating 
Cincinnati into a national conversation around diversity and 
inclusion. Every day, MORTAR shows Cincinnatians and other 
communities what's possible when you invest in previously 
underestimated entrepreneurs.

    Unfortunately, Cincinnati suffers from chronic economic 
inequality, as over 75% of African-American families live in 
poverty and 17.1% of African-Americans are looking for work. 
The Kauffman index ranked Cincinnati 32 out of 40 in terms of 
entrepreneurial opportunity. Forbes ranked Cincinnati 50th out 
of 52 cities in terms of economic opportunity for minorities, 
and the Urban League listed Cincinnati at 73rd out of 77 cities 
in terms of economic mobility for African-Americans.

    Within these sobering statistics are minority entrepreneurs 
with talent who could make a tangible impact in our region if 
given the opportunity.

    Take Means Cameron, for example. Last Friday, I met with 
Means, the owner of one of America's hottest clothing brands, 
Black Owned, and his SCORE mentor, Jim Stahly. They were 
meeting with me because Means, despite being college educated 
and the founder of a successful, hip streetwear company, needed 
access to capital.

    To see Jim, a seasoned business executive, working with 
Means, an early-thirties entrepreneur from the inner city, 
seamlessly work together through a sophisticated business plan 
brought tears to my eyes. Jim's experience, coupled with Means' 
resourcefulness and MORTAR's resources, will help Means 
continue to succeed.

    The reality is that many people like Means will never have 
an opportunity for their dreams to be realized.

    Luckily, I have the opportunity to make a positive impact 
on entrepreneurs like Means every day.

    Central to our work is our partnership with SCORE. Any 
person, whether you intend to be an artist, plumber, 
entrepreneur or politician, needs to have a support system in 
place if you want to succeed. According to the U.S. Small 
Business Administration, small business owners who receive 
three or more hours of mentoring report higher revenues and 
increased growth.

    SCORE is the nation's largest network of volunteer, expert 
business mentors, with 10,000 volunteer mentors nationwide 
providing free small business mentoring sessions, workshops and 
educational services to clients. Since 1964, SCORE has helped 
more than 10 million aspiring entrepreneurs to start or grow a 
business. In 2017, SCORE mentors volunteered 3.6+ million hours 
to help create 54,506 small businesses and 61,534 non-owner 
jobs.

    SCORE has filled a critical gap for MORTAR entrepreneurs, 
offering their time and expertise to support and cultivate the 
dreams of our high-potential, under-resourced entrepreneurs. 
Since day one, SCORE has provided a mentor for every single one 
of MORTAR's 170 graduates. In the beginning, I was nervous--how 
would this organization of seasoned, mostly white professionals 
interact with our graduates? Well, I can say with certainty 
that our partnership with SCORE, and the resources they 
provide, has made our entrepreneurial community one of the 
strongest in the country.

    SCORE has also stepped in to support MORTAR, helping us 
evaluate our own business model along with opportunities to 
expand our footprint in Cincinnati and beyond.

    Our partnership with SCORE has been instrumental to our 
growth--we've recently expanded to five communities in 
Cincinnati, and opened three additional pop-up spaces there. We 
plan to pilot our new curriculum with partners in Milwaukee, 
and we recognize that working with SCORE is an indispensable 
component of our success. We recognize the power in bringing 
together people of different backgrounds around a common, 
shared passion for entrepreneurship. As a result, we've forged 
lifetime bonds between people who may have never met otherwise.

    The experience of MORTAR entrepreneurs connecting with 
SCORE mirrors that of my father, who, through the generosity of 
my grandfather, forever changed his trajectory and that of my 
family.

    At the end of the day, our hope is that our approach--in 
close partnership with SCORE--will catalyze the creation of 
local ecosystems where entrepreneurs of all backgrounds and 
colors can not only participate, but also transfer economic 
opportunity and ownership to future generations.

    Our partnership with SCORE has helped MORTAR graduates to 
exceed the national business averages. For example, we know 
that of the 170 graduates of MORTAR's program, 132 are still in 
business, with 71% engaged in our alumni support network. We 
estimate that in the past year alone, our entrepreneurs have 
added $1 million to our regional economy. One graduate, Brian 
Jackson, is on pace to open Cincinnati's first black-owned 
brewery.

    It's been proven that MORTAR graduates--despite coming from 
disadvantaged backgrounds--are staying in business longer, 
creating more jobs and real economic change for individuals and 
communities in our region. The impact of our work has been 
featured in publications such as Forbes, NBC Nightly News, the 
Stanford Social Innovation Review, Politico Magazine and 
others.

    The work of MORTAR is just getting started. We recognize 
that by partnering with organizations like SCORE, great things 
can happen. Our plan is to continue working to teach 
entrepreneurship in communities where the next Steve Jobs, 
Kanye West or Walt Disney may live. We see a world where with a 
MORTAR on every inner city corner, where the crazy dreamers who 
see the world differently will be encouraged, inspired and 
trained to change the world.

    Thank you for again for your support and for allowing me to 
testify. I am happy to answer any questions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Testimony of Stephanie Carter: Community Support: 
Entrepreneurial Development and Beyond

    Thank you, Chairman Kelly, Ranking Member Adams and 
distinguished Members of the Subcommittee, for the opportunity 
to share this testimony with you. My name is Stephanie Carter, 
and I am founder and President of SCB Management Consulting. 
SCB resolves complex business challenges and develops tailored 
solutions for corporate executives, public sector 
organizations, and business owners. SCB's core services are 
program and project management, risk management, strategic 
planning and business process improvement.

    I am testifying today on behalf of the Association of 
Women's Business Centers (AWBC), which supports the national 
network of Women's Business Centers (WBCs) by providing 
training, mentoring, programming, and advocacy with the goal of 
improving services to women entrepreneurs. The AWBC's 
membership includes all of the 107 WBCs throughout the United 
States.

    As you know, the Women's Business Center program is a 
public-private partnership with 30 years of success in 
providing training, counseling, mentoring, and access to 
capital to women entrepreneurs across the country. Women and 
business like me and SCB.

    Before I begin, let me thank the subcommittee for holding 
this hearing today. Understanding the challenges of launching 
and growing a business is difficult, and too often we do not 
fully recognize the factors at the periphery of traditional 
business creation--despite their importance. I fully believe 
that the community fostered by the WBC played a key role in my 
success, and its replication can only mean good things for 
women entrepreneurs nationwide.

    Strength in Numbers

    Business success is predicated on a host of factors, 
ranging from the expertise of the business owner, to wisdom of 
the business plan, to the ability to access capital, to picking 
the right location or marketing, to hiring the right staff. 
When a business succeeds or fails, there are so many variables 
to point to as a driver of where an entrepreneur made or did 
not make it.

    What is undeniable, however, is that those businesses that 
have a network of support behind them fare better than those 
without. In my view, here are a few reasons why this is.

    First, a network allows you to problem solve the early 
crises of launching and growing a business. Along the way, 
whether its incorporation or tax questions, to the logistics of 
office space or your first hire, they are myriad challenges in 
every business. When you have a network of fellow entrepreneurs 
you can collectively solve--and even anticipate--many of these 
issues.

    Second, a strong community helps identify new 
opportunities. Every business, whether five minutes or 5 
generations old, is seeking new opportunities. A community that 
understand your business and its offerings is incredibly 
helpful in spotlighting business development. Similarly, it 
also allows for teaming of entrepreneurs who may collectively 
offer an innovative solution to the market than individually is 
not available.

    Finally, and perhaps the hardest to define but also the 
most important, a community and network gives you the 
confidence to become an entrepreneur and the persistence to 
thrive after your business is created.

    For these reasons, developing communities of support around 
women entrepreneurs should be considered critical. The 
potential of the nation's 11 million women business owners 
thrives only when the challenges of business can be addressed 
through sufficient access to counsel.

    The Role of Women's Business Centers in Fostering Community

    The network of 150 women's business centers service 
locations across the country spend each day unlocking this 
potential--and addressing those challenges. The WBC program 
plays a different role to each of the two million women who 
have walked through our doors, but in so doing, has created a 
community of two million women entrepreneurs.

    A study of WBC clients done by the Center for Women's 
Business Research found that, aside from general business 
management information, gaining financial management skills, 
and learning about the legal aspects of organizing a business, 
what the clients valued highly from their experience in the 
center was finding a community of other women with whom to 
build relationships. Unlike a ``transactional'' short-term 
course--after which a prospective business owner is on their 
own--women's business centers provide a venue for ongoing 
learning and relationship-building.

    Simply put, the WBC's role is the glue of the women's 
entrepreneurial ecosystem. In communities that have WBCs, 
entrepreneurs of all kinds are developing the skills and 
confidence to launch or grow their business.

    How WBCs and Community Support Helped SCB

    I launched my business after nearly twenty years in 
corporate consulting and internal leadership roles. While I had 
the business, finance and operations foundation of my MBA and 
corporate roles, there were many aspects of entrepreneurship 
that I felt I needed including legal, tax, sales and marketing.

    I began enrolling in Entrepreneur and Business Planning 
Courses with the Women's Business Development Center in Center 
City Philadelphia and the SBDC in Baltimore in early 2016.

    Once I was in the Washington DC area, and with the public 
sector being one of the greatest opportunities for consulting, 
I embarked on learning as much as I could to help me directly 
penetrate the market and begin to grow my business. I took my 
first seminar with the WBC in July 2017 ``Orientation to Small 
Business Resources-Montgomery County.'' During that session I 
learned about other WBC courses including the Procurement 
Series offered by Prince Georges County and Montgomery County. 
I started that six-part series in August 2017 because it 
offered a host of information about accessing the public sector 
market. The series culminated with a matchmaking session with 
procurement specialists in November.

    I enrolled in the Procurement Series for the business 
development information, however, gained several relationships 
that ultimately formed a community of support for my business:

          <bullet> The WBC counselor who facilitated the series 
        has become a great ongoing resources for business 
        development opportunities as well as other information 
        I may need including securing office space.

          <bullet> I forged a partnership with one of the 
        speakers who noticed during my `elevator pitch' that we 
        may have some synergies, and currently pursuing 
        business development opportunities together.

          <bullet> I included one of the Procurement Series 
        participants who is just starting her consulting 
        business, in a recent bid.

          <bullet> Public sector panelists have been very 
        accessible and helpful in gaining a greater 
        understanding of their respective organizations.

    It also is not just the network at the WBCs alone that has 
provided benefit. I learned of other networks at the WBC that I 
should engage and have expanded my ability to grow my business 
through them. There is an exponential impact of the initial 
network supplied by the WBC.

    I learned through the WBC courses that an effective market 
penetrator for new entrepreneurs such as myself are Woman 
Business Enterprise (WBE) and Minority Business Enterprise 
(MBE) certifications. I began the process in 2017 and now 
certified in all qualifying categories. As a newly certified 
WBE and MBE, I regularly attend informational and matchmaking 
sessions offered by the certifying agencies.

    I also attend a variety of forums such as Pre-Bid 
Conferences, Economic Forums, and State of Maryland ``Ready, 
Set, Grow'' monthly informational sessions offered by the 
Governor's Office that also offer the opportunity to meet 
industry leaders. As a result, I have begun to forge new 
relationships in the public sector. Some of these relationships 
are leading to immediate collaborations while others are laying 
the foundation for long-term mutual relationships.

    I am also a member of the DC Chapters of the Financial 
Executives International (FEI) and the Risk and Insurance 
Management Society (RIMS). I was previously with other business 
organizations, however, have generally found daytime chapter 
meetings are not conducive to my subcontracting engagements.

    Furhtering Community Support

    One of the first questions I often review in these networks 
is ``where do you live?'' People are consistently shocked that 
I have traveled from Calvert County to Baltimore, Columbia, 
Northern Virginia, etc. to attend an event. However, 
opportunities for the information and access that I need 
generally are not offered in Southern Maryland.

    My example is not unique. Companies hover around these 
networks and we must do a better job of creating communities of 
support in areas that need business growth the most.

    Similarly, we must continue to enhance the WBC program at 
SBA. With jurisdiction over the program, this Committee has the 
opportunity to make the benefits I have experienced more 
widespread. The limitations of an outdated authorization are 
evident in the day-to-day experiences of these centers.

    I encourage policymakers to consider legislation that would 
allow for more flexibility for WBCs--particularly eliminating 
the many burdens they face and choose not to operate in certain 
areas.

    The role of AWBC, who I am representing here today, should 
also be leveraged. Through statute, we should build on the best 
practices of other resource partners and allow for 
accreditation. Part of this process would ensure that every WBC 
has the skilled resources to develop communities of support for 
women business owners.

    Finally, Congress should increase the visibility of the WBC 
program. I encourage this Committee to use its' extensive media 
abilities to talk about WBCs. The more we do that, the larger 
the community of support becomes.

    The commitment of this Committee to the WBC program 
deserves recognition as Congress is working to enhance WBC's 
role in fostering a positive environment for women 
entrepreneurs. We are grateful to Committee Chairman Chabot, 
Ranking Member Velazquez and Representatives Knight and Lawson 
for introducing leg8islation to re-authorize the program. 
Representative Stephanie Murphy, too, championed the program 
and restored to the FY2018 WBC funding the additional $1 
million in appropriations included in FY2017.

    These actions make the WBC's role in the broader women's 
business community profound. I am excited that they will 
continue their work and continue to support the growth of 
women's entrepreneurship and the community of support created 
by this important program.

    Conclusion

    In closing, I appreciate the opportunity to celebrate the 
unstoppable community of women-owned businesses and the impact 
they are having on our nation's economy and to update this 
subcommittee on the role that community played in my success. 
Many challenges remain for women-owned businesses, but we have 
only begun to tap the potential of this economic powerhouse.

    With the help of the Congress, the SBA, and the WBC 
Program, I believe we can continue to build a community of 
support that will allow women entrepreneurs and small business 
owners around the country to realize their full entrepreneurial 
potential and contribute significantly to economic growth and 
job creation.

    Thank you again for this opportunity to testify.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Community Support: Entrepreneurial Development and Beyond, 
a VBOC Perspective

    Good morning, I am Tamara Bryant. I am the director of the 
Veterans Business Outreach Center at Fayetteville State 
University serving the states of North Carolina, South 
Carolina, and Kentucky. The Veterans Business Outreach Center 
or VBOC is the Small Business Administration's program that 
provides business training, counseling, and SBA resource 
partner referrals to active duty service members, National 
Guard & Reserve personnel, veterans, and military spouses 
interested in starting or growing a small business. The SBA has 
20 organizations participating in this cooperative agreement 
and serving as Veterans Business Outreach Centers (VBOC) across 
the mainland US and one in Hawaii. I would like to thank 
Ranking Member Alma Adams and Chairman Trent Kelly 
Representative for the invitation today to share with you 
VBOC's entrepreneurial development programs, a collaboration of 
resources and partnerships to help build stronger 
entrepreneurial communities and to increase the success rate of 
Veteran-owned businesses.

    VBOC's core competencies are entrepreneurial development 
training designed to deliver interactive and experiential 
workshops that give the attendee the opportunity to walk away 
with tangible outcomes and takeaways they can immediately 
employ in their business. One major point of entry to VBOC 
services is during the active duty service member's transition 
out process in a training called Boots to Business. This is a 
two-day training workshop conducted at military branches that 
introduces our target audience to the idea of entrepreneurship. 
The training is taught by VBOC and other SBA resource partners 
including Small Business Development Centers, SCORE and Women's 
Business Centers. Last fiscal year, Fayetteville State 
University's VBOC conducted 68 training sessions. The 20-VBOC's 
as a whole conducted 607 training sessions across the country. 
Our second core competency is business counseling that assists 
clients with evaluating the feasibility of a business concept 
and turns it into an actionable plan, start-up assistance/
expansion, business planning, loan package assistance, and 
more. Third, is our resource referral program, VBOC works 
closely with other SBA resources partners across the U.S. when 
a specific area of expertise or greater assistance is needed. 
For instance, if a client needs to get a Veterans 
Administration (VA) certification as a VOSB or SDVOSB we will 
refer the client to the Procurement Technical Assistance Center 
who are certified to do VA certifications. The entrepreneurial 
development training, collaboration of resources and community 
support are critical success factors for VBOC's mission which I 
will elaborate on.

    Fayetteville State University Veterans Business Outreach 
Center (FSU-VBOC), since its inception in 2010, is committed to 
assisting veterans, transitioning soldiers, active duty, guard, 
reservist, and spouses to start, purchase or grow a small 
business. FSU VBOC is located in North Carolina with a total 
population of 790,000 Veterans who reside in each of the 100 
counties across the state. Close proximity to the largest Army 
Installation, Fort Bragg-home of the 82nd Airborne. VBOC is 
hosted at Fayetteville State University's (FSU), College of 
Business and Economics, a Historically Black College University 
(HBCU). FSU is a constituent member of the University of the 
North Carolina System, and it is known for its support of 
military-affiliated students through serving large numbers of 
active duty soldiers, their spouses and families, as well as 
veterans. The college has over 6,200 students with almost 25 
percent of that population being the military community. This 
collaboration with FSU is a natural fit for VBOC's target 
customers and mission. It has allowed VBOC the opportunity to 
collaborate/participate in the College of Business and 
Economics entrepreneurship programs such as small business 
consultant teams. The small business consultant teams are 
undergraduate or graduate students (many of the students are 
military affiliated, minorities and women) that work closely 
with our clients to solve business needs in areas of marketing 
research, feasibility studies, and financial analysis, and to 
help them pursue new opportunities. These student engagement 
opportunities provide the students with real-world practicum 
educational experience focused on helping small businesses and 
our clients receive valuable assistance at no charge. In 
addition to collaborating with CBE, we conduct government and 
corporate procurement training to better position the target 
audience to compete for all levels of contracting, and judge 
entrepreneurial pitch competitions, to name a few undertakings. 
This collaboration allows VBOC to promote and market our 
services to military students and alumni', provide our clients 
access to student internships, provide government procurement 
technical training/plans rooms, workshops/seminars taught by 
awarded winning entrepreneurial professors, as well as, access 
to state-of-the-art classrooms and technologies.

    FSU-VBOC is extremely fortunate to have great partnerships 
with highly valued resource partners to help service our 
clients in an exemplary manner. VBOC's network offers 
invaluable services and programs for our veterans and military 
community, however, we do have our challenges for example, not 
having centers in each state, which leaves several VBOC's to 
cover multiple states. Therefore, it is critical for the VBOC's 
to leverage other resource partners to assist their client's 
needs. We understand our clients come with a unique technical 
skill set, impeccable leadership skills, core values, and a 
mission-focused mindset but often they may lack the business 
acumen skills or the ability to transfer their military skills 
into an entrepreneurial career pathway. VBOC's entrepreneurial 
development training, business counseling and referral services 
address those needs with the assistance of SBA Resource 
Partners, local/state agencies and community support which 
becomes an added-value to their clients. It is imperative that 
we know and understand the population of our target customers 
and the available resources to meet the client needs and manage 
and exceed their expectations. FSU-VBOC client base is very 
diverse serving over 1,400 clients this past fiscal year, 47% 
minority and 21% women with various needs in access to capital, 
securing government contracts/certifications, business plan 
development and access to human capital. Having a clear 
understanding of who we serve and what their needs are allows 
VBOC to leverage the right resources and provide in-depth 
counseling that results in impactful outcomes. I will be 
highlighting two successful clients for whom VBOC leveraged 
other resources that yielded the clients' great results.

    Marcella Eubanks, Army Veteran owner of Bravery Kids Gym, 
came to VBOC with her idea of owning an all-inclusive 
children's gym with a focus on children with special needs. She 
received assistance with developing her business plan/start-up 
assistance and referral to a local community bank to obtain 
funding. She came back to the center for other services because 
she viewed the staff at VBOC as a trusted advisor and was 
willing to work with other agencies. She's been referred to the 
Syracuse University V-WISE pitch competitions, SBTDC for 
specialized training in QuickBooks and utilized CBE student 
internships. These referrals have helped her win pitch 
competitions, hire 6 part-time employees and improve the 
business' operational and marketing systems.

    Robert Fletcher, Army Veteran owner of Bob's Smokin' 
Southern BBQ Sauce, attended VBOC's annual Entrepreneurial 
Bootcamp for Service Disabled Veterans. The week-long training 
provides a learning and development opportunity for veterans 
and spouses who are interested in starting a business. Robert's 
idea of his famous barbecue sauce concept started in the boot 
camp. He later worked closely with the VBOC staff to form the 
business. Robert was also introduced to one of VBOC's core 
strategic partners the North Carolina Veterans Business 
Association (NC Vet Biz). Its mission is to support, educate 
and connect all veterans in commerce in North Carolina with 
resources to become successful in business. The association 
assisted Robert with additional distribution channels to get 
his sauce to the market. The training, counseling and 
partnership assisted Mr. Fletcher in operating nationally with 
sauces now in over 200 stores, as well as being offered 
expansion internationally to Australia, Germany, and Okinawa. 
He will soon be a part of a Netflix documentary scheduled to 
begin production in late 2018. These are two of man success 
stories demonstrating FSU-VBOC collaborations with resource 
partners, and local organizations to deliver desirable outcomes 
for their clients. FSU-VBOC's impact on the US economy's during 
the past fiscal year includes: contributing to 41 businesses 
started, 537 jobs created and retained, 2.2 million loans 
acquired, and 1.3 million contracts awarded with the assistance 
of great partnerships and community support.

    Veteran-Owned businesses are the pillars of the American 
economy. Nearly 1 in 10 businesses are veteran-owned, 
generating approximately 1.1 billion of the nation's total 
sales per year. These businesses hire 5.03 million people per 
year, and have an annual payroll of $195 Billion (data 
collected by the Office of Veterans Business Development). 
Veteran-owned businesses are found across diverse industries 
with the above average representation in finance/insurance, 
transportation/warehouse, construction, and agriculture/
forestry/fishing. The State of North Carolina sees growth in 
these industry sectors as well. FSU-VBOC partnered with NC 
Department of Agriculture, USDA and NC Department of Veterans 
and Military Affairs to host annual Veterans in Agriculture 
summit to promote, support and expose more Veterans to the 
agriculture industry. Veteran women-owned businesses steadily 
increase each year, (15.2% of businesses are owned by veteran 
women). To continue the steady increase, VBOC co-hosted ``A New 
Mission: Military Women as Entrepreneurs Conference'' with the 
Women's Business Center of N.C. across the state. VBOC's 
recognized the challenges these veterans faced as business 
owners in obtaining access to capital and government/corporate 
procurement. To assist our clients with these critical needs 
FSU-VBOC partnered with the North Carolina Veterans Business 
Association to provide veterans and the military community with 
access to more procurement opportunities, removing barriers to 
entry and networking opportunities. The past fiscal year for 
the VBOC network was marked by very significant levels of 
outreach, training, and services for veteran-owned and military 
spouses' small businesses. Over 1,700 training events held, 178 
businesses created, and 1,006 jobs created and retained, 243 
prime and subcontractors awarded, and 8.5 million dollars in 
SBA loans approved. Starting May 1st, the award expands the 
existing VBOC network from 20 to 22 centers across the nation, 
ensuring 100 percent geographic coverage. Each of the 22 
awardees displays proven commitment and continued excellence in 
providing comprehensive entrepreneurial services to the veteran 
and military community. Most of the VBOC centers cover multiple 
states and attend every Boots to Business course, all with a 
budget of $6,000,000. The 22 Veterans Business Outreach Center 
through its cooperative agreement is committed to ensuring that 
every service member and military spouse has the resources they 
need in their local communities to start and operate small 
businesses, achieve post-service career success, and strengthen 
the Nation's economy. My ask is for your continued support of 
VBOC services to increase the success rate of business 
ownership with this highly skilled workforce. Again, thank you 
for this opportunity to share and represent the VBOC network-a 
program that helps our service men and women, and Veterans who 
fought, protected and served this GREAT NATION!

          Submitted, 10 April 2018

          Tamara Bryant, Director
          <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="285c4b4a515a49465c685d464b4e5b5d064d4c5d">[email&#160;protected]</a>
          Fayetteville State University-Veterans Business 
        Outreach Center
          www.FSUVBOC.com
          1200 Murchison Rd
          Fayetteville, NC 28301
          (910) 672-1107

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
